  08/18/2009    08:53      0000000000                            LOS ANGELES DIG                                     PAGE   05/06



                        NATIONAL RAILROAD PASSENGER CORPORATION
                             OFFTC€ OF THE INSPECTOR GENERAL
                               OFFICE OF THE lNVESTIGATIONS

                                                  CLOSING @PORT


              CASE NUMBERI           07-042

              DATE:                  August 10. 2009

              TO:


             FROM:
                                     Special Agent, •         Fjeld Office

             BACKGROUND:
                                                                                Offlc. of




             li'lNDlNG OF FACTS:



         -
             On May IS, 2007, 01 inte:rvi"we,d.
             audit of ORB Financial Records by


          ~ (0_                on July 13,200(" Iho ORB                      convened a meeting j n _
          _          and that dul'ing the course of the meeting               made a 1lI0tion to havo   (III   audit
          oonducted on the ORB records and suggested thnt              cOllduct thnt audit.

         _          said that betweon Jllly 13, 2006, through Octobe,' 14, 2006, _ b e e l l given
          nnmAt'f.'U9 opportutlitie~ to    provido   dOO\lmelltatiotl 01' n tM30nQbJo OXC\!SO M   to   what had
          hapP0ne<i to ORB funds._told 01 Agonts                              wes ~o eilhe)' aud
          that                   she was removed                                   _by


         On JUM, 2007, or Interviewed                  . According to                       had lIIissml
         several meetings and had not provided a                  report.                     the policy
         mand.t.s thot the committee roview finanoial reports at all quarterly meetings. He had been
         Intormed thai              had missed two (2) quarterly meetings which the committe,. could not
         review any financial reports during that period.

                                   'U~'''UJ    membors that had autho";zed to issue and to sign off on ORB


         ~
          ;;ii~i=!!                           that former Amtrak                                            nnd
                                                                              also listed 011 the accolUlt with
                                       tJlnt was Improper                       glvell_pre-slgned
         d".~k. all~ IIi.1 a~ a member oflile Steering Committee,        .Ial:so had RtlthodZlltlon to review
         the financial records at anytimo.
                                                                                                                 1

- -- - ------_                            ..
08/18/ 2009       08:53      000000 0000                         LOS ANGELES OIG                                PAGE   06/0&




               On Octobor 3, 2007, Ol conducted a
                                                                                                      asked if
               he ha~ ever been apprised of any of the
               _                                                                                     Reports ,
                         told 01 that a report waq uM m~de                       and     every mombor of the
               ORB Steering Committee had a rigllt to review the           book, financial roports, nnd other
               documentation as it relates to ORB, _ o l d or he became aware of
               Gummlned theft once ho rovlewed the rccord and spreadsheets that had been prepare       having
                                                                                                d by    J
             ~01
             ~                      _
                                        conduotod   M   intor/io w with _ _    Ill
                                            was asked If he was aware of
             committing a theft, _ a i d that h. was reroute to nil ORB Steering Comml
             ~e had recalved phone calls /loom _an d _adv ised him
                                                                                           ltee
                                                                           in sub,stallce,c.!lli!!
             had used ORB funds fo,' personal use and failed to               quarterly
            _       said that he WM aware thnt             I Ullt!            been e-mailing each other
            regarding the inoident. _sa id that the pl'opei' ~nd procedure
                                                                                       were printed Itl the
            ORJ3 workbook alld thatthose nctives conducted by _ w e m vinlAted
                                                                                       of ORE rulcs,
             01\ April 3, 2008, lhis CBse was presented to the
                                                                                         Dlslrict Attornoy Office,
             Criminal                                    and                        prosecution, Veputy District
             Attomoy                                              the ell$e and advised 01 that, although the
            aellvilies                                the standard fo,' falnny embezzlement charges, sho would
            decline prosecution            on the ~orvjsory officials within ORE had colleotlvely
            slated that t!toy did I)ot believe t h a i _ v a s oommitting thett nnd Ulat
                                                                                               her problems were
            n mattor of poo,' r~ng, According to                               those statements made by those
            individuals afforded _ t h e excuse ~he needed to nUllifY any wrons doing
                                                                                                   on her part,
           RECOMMENDATION:                   ;
           Close this case, 'rhe hearing offlcer found _          guilty of violatiOIl of Amlrok'~ Stnnrl"'ds
           of r;xcailcnce, "Trust and Honosty" by acquiring fllnds fi'olCl ORB which she
                                                                                           was 1I0! entitled to
           receive and she was subsequently tcnninated on February 9, 2007,

           ORB removedl~:~                                                                     Checks can
           no longer be a                                                     signatol}' work in th~ Willa
           physical area as the                           only sign a check to .the payee and amount only
           after it Is accompollied   sl'pporting documentation,
           Managemont at ORB has been told that it must continuo to udhom to ORB
                                                                                 Checking Account
           Report II      and was redistributed to ORB mcml,",".




      , Chiof Inapeotor _ __


       I?~puty     Inspector General/Counsel     -----/-;4,L--'----~'4+/~1-r1L.k1""'--I---
       (   ,
       ,"I, •




                                                                                                            2
